CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, I, Jonathan E. Singer, a member of the
Supreme Court Bar, hereby certify that one copy of the attached Letter Application was
served on October 14, 2019, via electronic mail and by Federal Express on:
Seth P. Waxman
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
Seth.waxman@wilmerhale.com

/s/ Jonathan E. Singer
Jonathan E. Singer
FISH & RICHARDSON P.C.
12390 El Camino Real
San Diego, CA 92130
singer@fr.com
COUNSEL OF RECORD FOR
RESPONDENTS

